TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Strengthened Management Processes Are
                 Needed to Assure the Usefulness of Products
                      and Services Received Through the
                  Infrastructure Shared Services Task Order



                                             March 2006

                              Reference Number: 2006-20-063




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 30, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Strengthened Management Processes Are Needed
                               to Assure the Usefulness of Products and Services Received Through
                               the Infrastructure Shared Services Task Order (Audit # 200520018)

 This report presents the results of our review of the Fiscal Year (FY) 2004/2005 Infrastructure1
 Shared Service (ISS) task order.2 The overall objective of this review was to determine whether
 the Internal Revenue Service (IRS) is receiving full value from the PRIME contractor3 under the
 terms and conditions of the FY 2004/2005 ISS task order.

 Synopsis
 The IRS is currently in the midst of a multiyear, multibillion dollar effort to update its core
 business systems, known as Business Systems Modernization (BSM). According to IRS
 estimates, this effort involves integrating thousands of hardware and software components over
 15 years. The success of the BSM program depends on establishing a strong foundation from
 which to build business applications supporting tax return processing and other critical
 mission-related functions. In February 2002, the Business Systems Modernization Office began
 building this foundation by establishing the ISS program to install the infrastructure. These
 critical infrastructure areas are being relied upon by other modernized projects and systems. For
 FYs 2004 and 2005, the IRS issued a task order to the PRIME contractor to work with the IRS to


 1
   Infrastructure refers to the hardware, software, and security systems that computer systems use to communicate
 and share information.
 2
   A task order is an order for services placed against an established contract.
 3
   The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
 companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
 information technology.
                             Strengthened Management Processes Are Needed
                        to Assure the Usefulness of Products and Services Received
                           Through the Infrastructure Shared Services Task Order


maintain the current infrastructure environment and adapt to new changes and upgrades that are
inherent in information technology components.
We determined the IRS has improved its ability to perform detailed reviews of the contractor’s
invoices, the PRIME contractor is making corrections to work items as requested by the IRS, and
significant work items and special projects provided through the ISS task order are providing
value to the IRS. While value is being received for many of the work items and special projects
in the FY 2004/2005 ISS task order, we determined the IRS is not obtaining the anticipated value
for some work items and special projects, and it is difficult to determine the value being received
for other work items and special projects.
We reviewed a judgmental sample of 27 work items produced by the PRIME contractor and
received by the IRS between February 2004 and May 2005 and determined the IRS received the
anticipated value for 12 work items and received value for an additional 3 work items as part of
different projects. However, the value received for the remaining 12 work items was more
difficult to determine. Initially, we concluded the IRS did not receive full value for these work
items. Upon meeting with IRS officials in September 2005, December 2005, and January 2006,
the IRS provided additional information concerning whether these remaining work items
provided value. The IRS agreed seven work items did not provide the IRS with their anticipated
value. However, the IRS stated it believed that, while the original anticipated value may not
have been obtained, the IRS did receive value from the remaining five work items. In addition,
we reviewed all 11 special projects performed under the FY 2004/2005 ISS task order and
determined 2 (18 percent) did not provide the anticipated value to the IRS.4
The IRS does not individually evaluate the value
obtained from specific work items or special projects      The IRS has spent Federal
during the completion of activities within the             Government resources for
FY 2004/2005 ISS task order. We determined the           Infrastructure Shared Services
                                                          work items that are not being
IRS could do more to proactively assess if value is
                                                                      used.
being received from the PRIME contractor.
Currently, the IRS does not have all the information
necessary to perform value measurements because 1) users/owners are not documenting the
purpose and planned results for work items, 2) the IRS does not have cost estimates for
individual work items, and 3) the IRS is not performing quality reviews of deliverables or
making overall performance assessments of the PRIME contractor.




4
    See Appendix V (Table 2) for a list of the 11 special projects.
                                                                                                  2
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



Recommendations
To ensure users/owners are appropriately identified and actively participate in measuring the
value received from work items delivered by the PRIME contractor, we recommended the Chief
Information Officer (CIO) implement a consistent process to formally document users/owners
and require users/owners to 1) document the purpose, 2) create success criteria, and 3) document
whether each work item met the stated purpose and defined success criteria. To ensure adequate
cost estimates are available, we recommended the CIO require the PRIME contractor to provide
original and revised (if applicable) cost estimates for all task order activities. To ensure quality
ratings and measurements are performed, we recommended the CIO require all Acquisition
Project Managers and Project Account Managers5 to follow the ISS task order monitoring plan.
Finally, to ensure an overall contractor performance evaluation process is available to create a
rating for the entire PRIME contract, we recommended the Business Systems Modernization
Office complete activities to implement an overall contractor performance evaluation process.

Response
IRS management fully agreed with three of our five recommendations and partially agreed with
two recommendations. To ensure users/owners are appropriately identified and actively
participate in measuring the value received from work items delivered by the PRIME contractor,
the IRS will modify templates to define expected outcomes and ensure users/owners are
identified and documented. This will allow the IRS to determine whether stated objectives were
met. To ensure adequate cost estimates are available, the IRS will ensure certain cost estimate
revisions are documented as separate estimates. To ensure quality ratings and measurements are
performed and an overall contractor performance evaluation process is available to create a
rating for the entire PRIME contract, the IRS will perform quarterly surveillance of expected
outcomes, has implemented a contractor performance evaluation process, and is completing an
evaluation for the PRIME contractor. Management’s complete response to the draft report is
included as Appendix VIII.

Office of Audit Comment
The CIO stated the partial agreement for two recommendations reflected the IRS’ view that the
cost to fully implement the recommendations outweighs the benefits. However, the IRS believes



5
  Acquisition Project Managers provide detailed acquisition/technical management of the contractor’s performance.
Project Account Managers provide the day-to-day technical oversight on all activities outlined in the task order and
related documents.

                                                                                                                   3
                        Strengthened Management Processes Are Needed
                   to Assure the Usefulness of Products and Services Received
                      Through the Infrastructure Shared Services Task Order


the planned corrective actions reflect a cost-effective approach to addressing the
recommendations.
For our recommendation to require users/owners to 1) document the purpose, 2) create success
criteria, and 3) document whether each work item met the stated purpose and defined success
criteria, the IRS will modify its templates to define expected outcomes. However, the IRS stated
it did not plan to implement our recommendation at the work item level. Based on a preliminary
version of this report, IRS officials explained they planned to evaluate logical groupings of work
items against expected outcomes instead of defining expected outcomes for every work item.
During our preliminary discussions, we agreed the IRS’ planned corrective action would meet
the intent of our recommendation.
For our recommendation to require the PRIME contractor to provide original and revised cost
estimates for all task order activities, the IRS stated it would strengthen its processes for certain
cost estimate revisions. However, the IRS does not believe a separate accounting of each task
order activity is needed. As stated in the report, the IRS process for initiating work items and
special projects within the contract does not require estimates of hours or dollar amounts for
specific work items. For example, one group of products and services requested from the
PRIME contractor was support for project management, business management, risk
management, and quality management, as well as the creation of a Project Management Plan.
The request included an estimate of over 3,500 hours. Since the estimate is for all products and
services, it is not possible to determine whether the PRIME contractor planned to spend a
relatively small or large amount of time creating the Project Management Plan. As a result, the
IRS can not determine the relative cost of each work item or service, which makes it difficult to
judge the value being received for any specific item within the contract.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                        4
                             Strengthened Management Processes Are Needed
                        to Assure the Usefulness of Products and Services Received
                           Through the Infrastructure Shared Services Task Order




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernized Infrastructure Is Being Maintained by the
          Internal Revenue Service Infrastructure Shared Services Team...................Page 3
          The Internal Revenue Service Did Not Receive the Anticipated
          Value for All Work Items It Received..........................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 8

                    Recommendation 3:........................................................Page 9

                    Recommendations 4 and 5: ..............................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Major Components and Special Projects for the
          Fiscal Year 2004/2005 Infrastructure Shared Services Task Order..............Page 15
          Appendix VI – Enterprise Life Cycle Overview ..........................................Page 18
          Appendix VII – Review of Value Received From Sample Work Items.......Page 23
          Appendix VIII – Management’s Response to the Draft Report ...................Page 30
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order




                                              Background

The Internal Revenue Service (IRS) is currently in the midst of a multiyear, multibillion dollar
effort to update its core business systems, known as Business Systems Modernization (BSM).
According to IRS estimates, this effort involves integrating thousands of hardware and software
components over 15 years. The IRS hired the Computer Sciences Corporation as its PRIME
contractor to head an alliance of leading technology companies in assisting with the BSM
program. The IRS also established the Business Systems Modernization Office (BSMO) to
manage the BSM program and oversee the work of the PRIME contractor.
The success of the BSM program depends on establishing a strong foundation from which to
build business applications supporting tax return processing and other critical mission-related
functions. In February 2002, the BSMO began building this foundation by establishing the
Infrastructure Shared Services (ISS) program to install the following infrastructure areas:
1) The Security and Technology Infrastructure Release provides the hardware and software
   necessary to deploy and run a BSM project. It provides key features such as web servers,
   security, messaging, and directory services.
2) Enterprise Systems Management provides the overlying management capabilities to the
   Security and Technology Infrastructure Release and network and systems management to
   improve infrastructure availability and performance. It also manages hardware and software
   inventories and monitors the performance of various systems.
3) The Development, Integration, and Test Environment provides a complete project
   development and testing environment meant to simulate actual operating conditions. It
   provides labs to evaluate potential solutions and their impact on business processes
   (Solutions Demonstration Lab), support all phases of information systems development
   (Virtual Development Environment), and test systems integration and final acceptance
   (Enterprise Integration and Test Environment).
These critical infrastructure areas have been implemented and are being relied upon by other
modernized projects and systems. For Fiscal Years (FY) 2004 and 2005, the IRS issued a task
order1 to the PRIME contractor to work with the IRS to maintain the current infrastructure
environment and adapt to new changes and upgrades that are inherent in information technology
components. Major components and special projects have been detailed within the task order
and are being executed by the PRIME contractor.2 The FY 2004/2005 ISS task order has a


1
    A task order is an order for services placed against an established contract.
2
    Major components and special projects are listed in Tables 1 and 2 of Appendix V.
                                                                                            Page 1
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order



period of performance from February 2004 through November 2005 with an estimated cost of
$36.9 million.3
This audit focused on the value received from products and services provided through the
FY 2004/2005 ISS task order. The Treasury Inspector General for Tax Administration is
conducting an additional audit focusing on whether vouchers submitted and paid under the
FY 2004/2005 ISS task order were appropriate and in accordance with the task order’s terms
and conditions.
We discussed our audit results with the BSMO in September 2005. At that time, changes were
being made at both the BSM program level and the ISS program level. Therefore, any changes
that occurred after we completed our analyses are not reflected in this report.
This review was performed at the BSMO facility in New Carrollton, Maryland, during the period
April through November 2005. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




3
    The $36.9 million is based on the FY 2004/2005 ISS task order (modification 31, dated February 17, 2005).
                                                                                                            Page 2
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order




                                       Results of Review

The Modernized Infrastructure Is Being Maintained by the Internal
Revenue Service Infrastructure Shared Services Team
The ISS team, through execution of the FY 2004/2005 ISS task order, is maintaining the
modernized infrastructure to support new and current modernized projects such as the
Modernized e-File4 and the e-Services projects.5 The BSMO and the PRIME contractor have
been working together to continue improving on the products and services received from the ISS
program and to ensure the modernized infrastructure is available for other modernized projects
and systems.

The IRS has improved its ability to perform detailed reviews of the contractor’s
invoices
The PRIME contractor submits monthly invoices with supporting vouchers6 for the
FY 2004/2005 ISS task order. Upon review and substantiation, the IRS will pay the invoice.
Between February 2004 and March 2005, the IRS worked with the PRIME contractor to revise
the voucher format. In April 2005, the IRS began receiving from the PRIME contractor a
revised voucher format that included data the IRS had not previously received (e.g., specific
contractor employees with the hours and travel costs they charged). By obtaining this additional
information, the IRS has improved its ability to perform detailed reviews of the PRIME
contractor’s invoices.

The PRIME contractor is making corrections to work items as requested by the
IRS
Issues and comments may arise during the IRS’ review of work items produced by the PRIME
contractor. We determined the ISS Project Account Managers7 and the Office of Procurement
Contracting Officer’s Technical Representative are taking steps to ensure the PRIME contractor
is making corrections to work items by addressing those comments and issues.



4
  This project is developing the modernized, web-based platform for electronically filing approximately
330 IRS forms.
5
  This project allows third parties to interact with the IRS via the Internet.
6
  Vouchers are detailed listings of charges made by the contractor on a month-to-month basis.
7
  Project Account Managers provide the day-to-day technical oversight on all activities outlined in the task order
and related documents.
                                                                                                             Page 3
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order



Significant work items and special projects provided through the ISS task order
are providing value to the IRS
We reviewed a judgmental sample of 27 (14 percent) of 195 work items produced by the PRIME
contractor and received by the IRS between February 2004 and May 2005 and determined the
IRS received the anticipated value for 12 work items and received value for an additional 3 work
items as part of different projects. For example, the PRIME contractor delivered a system
security plan and an outline for disaster recovery.8 We also determined the IRS received the
anticipated value from 9 (82 percent) of 11 special projects within the FY 2004/2005 ISS task
order.9 Many of these special projects were necessary to provide enhancements, upgrades, and
improvements to current infrastructure systems. While value is being received for many of the
work items and special projects in the FY 2004/2005 ISS task order, we determined the IRS is
not obtaining the anticipated value for other work items and special projects, and it is difficult to
determine the value being received for other work items and special projects.

The Internal Revenue Service Did Not Receive the Anticipated Value
for All Work Items It Received
As mentioned previously, we determined 15 of 27 sampled work items have provided or are
providing value to the IRS either for their original purpose or as part of different projects.
However, the value received for the remaining 12 (44 percent) work items was more difficult to
determine. Initially, we concluded the IRS did not receive full value for these work items. Upon
meeting with IRS officials in September 2005, December 2005, and January 2006, the IRS
provided additional information concerning whether these remaining work items provided value.
The IRS agreed 7 (26 percent) work items did not provide the IRS with the anticipated value of
the work items. However, the IRS stated it believed that, while the original anticipated value
may not have been obtained, the IRS did receive value from the remaining five work items. In
two instances, the IRS provided additional information after the conclusion of our fieldwork that
we were unable to verify. In the other three cases, the IRS believed the value of the items had
either yet to be realized or was obtained by allowing the organization to determine an alternate,
less costly path. Figure 1 summarizes the results of the 27 sampled items.




8
    See Appendix VII for a complete list of the sampled work items.
9
    See Appendix V (Table 2) for details on the 11 special projects.
                                                                                              Page 4
                             Strengthened Management Processes Are Needed
                        to Assure the Usefulness of Products and Services Received
                           Through the Infrastructure Shared Services Task Order



                        Figure 1: Selected Sample Work Items and Results10




                        Source: Treasury Inspector General for Tax Administration analysis of the
                        selected sample work items.

In determining value for the sampled items, we performed a detailed review to identify each
item’s purpose, results, and actual IRS users/owners. We also interviewed users/owners to
determine if the sampled items met their stated purposes and needs. Our conclusions that some
work items did not provide the anticipated value were based on one or more of the following
results found during the review:
       •   The IRS could not identify users/owners for the
                                                                              The IRS has spent Federal
           sampled items.                                                     Government resources for
       •   Actual IRS users/owners stated the sampled                       Infrastructure Shared Services
                                                                             work items that are not being
           items were of no value.                                                       used.
       •   Sampled items were not being used by the IRS
           and/or did not have a documented purpose.
We attempted to calculate and report the costs (dollar amounts) for the 195 total work items, the
27 sampled work items, and each of the 7 sampled work items that did not provide the
anticipated value to the IRS. However, the IRS could not provide cost data on individual work
items paid to the PRIME contractor because multiple work items and services were acquired
together. For each set of work items and services, the PRIME contractor provides a total
estimate (number of hours) of what it would take to complete all work items and services for the
IRS; however, the IRS does not request a breakdown by work item (see The IRS does not have
cost estimates of individual work items section in this report).

10
     See Appendix VII for a full list of the sampled items and their results.
                                                                                                             Page 5
                         Strengthened Management Processes Are Needed
                    to Assure the Usefulness of Products and Services Received
                       Through the Infrastructure Shared Services Task Order



In addition to the sampled items, we reviewed all 11 special projects performed under the
FY 2004/2005 ISS task order.11 These special projects varied in dollar amounts, with the largest
coming from the Development, Integration, and Test Environment General Lab Support special
project that cost the IRS $6.7 million.12 We determined 2 (18 percent) of the 11 special projects
did not provide the anticipated value to the IRS. The IRS spent $2,995,676 on these 2 special
projects.13 According to the IRS, the PRIME contractor’s performance on the Electronic File
Transfer Utility special project was not worth the cost during the last period we reviewed, and
funding priorities made it wise to take what the PRIME contractor had produced to date and
transition it to the IRS for completion. Regarding the Portal Upgrade and Infrastructure
Development Sandbox,14 the IRS stated the special project was never completed and was
ultimately cancelled by the IRS in December 2004. According to the IRS, it estimates it spent
$310,863 on the portions of the 2 special projects that did not provide anticipated value.15 In
both cases, the IRS stated that, while it did not receive the anticipated value from these special
projects, it did receive value by either completing work internally or as part of another project.
The IRS does not individually evaluate the value
obtained from specific work items or special projects
during the execution of activities within the                     The IRS could do more to
                                                                 proactively assess whether
FY 2004/2005 ISS task order. We determined the IRS
                                                              value is being received from the
could do more to proactively assess whether value is                 PRIME contractor.
being received from the PRIME contractor. The IRS
needs to enhance awareness and provide the information
necessary to incorporate value within task order
monitoring activities. Currently, the IRS does not have all the information necessary to perform
value measurements because 1) users/owners are not documenting the purposes and planned
results for work items, 2) the IRS does not have cost estimates of individual work items, and
3) the IRS is not performing quality reviews of deliverables or making overall performance
assessments of the PRIME contractor.

Users/owners are not documenting the purposes and planned results for work
items
According to the American Society for QualityTM, one way of achieving performance measures is
through the implementation of a continuous quality management process called the
Plan-Do-Check-Act cycle, which is a continuous cycle of planning, implementing, reviewing,

11
   See Appendix V (Table 2) for a list of the 11 special projects.
12
   The $6.7 million amount is based upon the PRIME contractor’s voucher for the FY 2004/2005 ISS task order sent
to the IRS for March 2005. The amount shown here is actual, while the amounts in Appendix V are estimates.
13
   See Appendix IV for additional details.
14
   The Infrastructure Development Sandbox provides a development and testing environment for IRS shared
infrastructure components.
15
   See Appendix IV for additional details.
                                                                                                        Page 6
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



and improving the processes and actions that an organization undertakes to meet its business
goals.
                                Figure 2: Plan-Do-Check-Act Cycle




                                 Source: American Society for QualityTM depiction of
                                 W. E. Deming’s Plan-Do-Check-Act Cycle.

Work items and special projects from the FY 2004/2005 ISS task order did not always list the
specific purpose, criteria, or details as to what the end results should contain. Furthermore,
acceptance and success criteria for those work items and special projects were not always
defined. This made it difficult to evaluate the work items and does not provide the IRS
information necessary to determine if value is being received or to hold the contractor
accountable for the work items and services. In addition, adequate user involvement helps
ensure user requirements are met. However, users/owners for work items and special projects in
the FY 2004/2005 ISS task order were not always identified or known by the IRS.
Due to the complexity and size of the ISS program, multiple Acquisition Project Managers16 and
Project Account Managers are using different techniques to execute their portions of the task
order. As a result of the differing techniques, users/owners are not always identified, acceptance
or success criteria are not always defined, and users/owners do not always participate in
measuring the success of work items and services received from the PRIME contractor.




16
   Acquisition Project Managers provide detailed acquisition/technical management of the contractor’s
performance.
                                                                                                        Page 7
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order



Recommendations
Recommendation 1: To ensure users/owners are appropriately identified, the Chief
Information Officer (CIO) should implement a consistent process to formally document
users/owners for all task order activities (work products, deliverables, and management and
support services).
           Management’s Response: The CIO agreed with this recommendation. To ensure
           users/owners are appropriately identified, the IRS will modify templates to ensure
           users/owners are identified and documented.
Recommendation 2: To ensure users/owners actively participate in measuring the value
received from work items delivered by the PRIME contractor, the CIO should require
users/owners to 1) document the purpose, 2) create success criteria, and 3) document whether
each work item met the stated purpose and defined success criteria.
           Management’s Response: The CIO partially agreed with this recommendation. To
           ensure users/owners actively participate in measuring the value received from work items
           delivered by the PRIME contractor, the IRS will modify templates to define expected
           outcomes. This will allow the IRS to determine whether stated objectives were met.
           Office of Audit Comment: While the IRS plans to modify templates to define
           expected outcomes, it does not plan to implement our recommendation at the work item
           level. Based on a preliminary version of this report, IRS officials explained they planned
           to evaluate logical groupings of work items against expected outcomes instead of
           defining expected outcomes for every work item. During our preliminary discussions, we
           agreed the IRS’ planned corrective action would meet the intent of our recommendation.

The IRS does not have cost estimates of individual work items
The Office of Federal Procurement Policy document entitled A Guide to Best Practices for
Performance-Based Service Contracting17 states costs must be computed for each service or
output based on available data. These costs are used in preparing the Federal Government
estimate, evaluating proposals, and determining positive and negative incentives. In addition, the
Enterprise Life Cycle18 states the IRS should assess the contractor’s basis of estimate in response
to an acquisition document issued to establish a task order or in response to tasking from an
existing task order. While complying with the full extent of these practices may not be
appropriate in all instances for the ISS task order, we believe the IRS should know the relative
cost of individual special projects or work items to be able to determine whether it is cost



17
     Dated October 1998.
18
     See Appendix VI for an overview of the ELC.
                                                                                              Page 8
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order



beneficial to acquire individual special projects or work items and whether value is being
received.
The IRS process for initiating work items and special projects within the contract does not
require estimates of hours or dollar amounts for specific work items. For example, one group of
products and services requested from the PRIME contractor was support for project
management, business management, risk management, and quality management, as well as the
creation of a Project Management Plan. The request included an estimate of over 3,500 hours.
Since the estimate is for all products and services, it is not possible to determine whether the
PRIME contractor planned to spend a relatively small or large amount of time creating the
Project Management Plan. As a result, the IRS can not determine the relative cost of each work
item or service, which makes it difficult to judge the value being received for any specific item
within the contract. Without this information, the IRS increases the chances that Federal
Government resources are not used effectively.

Recommendation
Recommendation 3: To ensure adequate cost estimates are available, the CIO should require
the PRIME contractor to provide original and revised (if applicable) cost estimates for all task
order activities (work products, deliverables, and management and support services).
          Management’s Response: The CIO partially agreed with this recommendation. To
          ensure adequate cost estimates are available, the IRS will ensure certain cost estimate
          revisions are documented as separate estimates.
          Office of Audit Comment: While the IRS plans to ensure certain cost estimate
          revisions are documented as separate estimates, it does not believe a separate accounting
          of each task order activity is needed. As stated previously, the IRS process for initiating
          work items and special projects within the contract does not require estimates of hours or
          dollar amounts for specific work items. As a result, the IRS can not determine the
          relative cost of each work item or service, which makes it difficult to judge the value
          being received for any specific item within the contract.

The IRS is not performing quality reviews of work items or making overall
performance assessments of the PRIME contractor
The Office of Federal Procurement Policy document entitled Best Practices for Collecting and
Using Current and Past Performance Information19 states recording contractors’ current
performance periodically during contract performance and discussing the results with contractors
is a powerful motivator for contractors to maintain high-quality performance or improve
inadequate performance. It also states current performance assessment is a basic “best practice”

19
     Dated May 2000.
                                                                                              Page 9
                       Strengthened Management Processes Are Needed
                  to Assure the Usefulness of Products and Services Received
                     Through the Infrastructure Shared Services Task Order



for good contract administration and is one of the most important tools available for ensuring
good contractor performance. The IRS uses the Office of Procurement Surveillance Reports to
report on the quality of deliverables. The ISS task order monitoring plan defines specific quality
ratings for the Surveillance Report. These criteria include evaluating cost control, timeliness of
performance, and quality of product or service.
We determined the ISS Surveillance Reports do not provide measurements on the quality of
work items as required by the ISS task order monitoring plan. In addition, the PRIME
contractor’s overall performance for the FY 2004/2005 ISS task order is not measured or
reported. As a result, the IRS may not know how well the PRIME contractor is performing or if
the PRIME contractor is meeting the needs and requirements of users/owners to adequately
measure the value received. Additionally, the risk of wasted resources is increased.
The Acquisition Project Managers and Project Account Managers are not required to follow the
quality ratings process, and they do not have a process which details specific steps for measuring
and reporting the contractor’s specific performance on the task order or to provide input for the
PRIME contractor’s overall performance on all modernization task orders. In addition, the
Associate CIO, BSM, stated the IRS stopped reporting on the overall performance of the PRIME
contractor due to inconsistent application of the prior contractor performance evaluation process.
Management Action: The Associate CIO, BSM, stated the BSMO is currently testing a revised
contractor performance evaluation process over a 6-month period. The revised process will
create a rating for the entire PRIME contract, instead of providing individual ratings for each
task order. According to the Office of Procurement, the IRS will complete the contractor
performance evaluation after January 2006.

Recommendations
Recommendation 4: To ensure quality ratings and measurements are performed, the CIO
should require all Acquisition Project Managers and Project Account Managers to follow the ISS
task order monitoring plan.
       Management’s Response: The CIO agreed with this recommendation. To ensure
       quality ratings and measurements are performed, the IRS will perform quarterly
       surveillance of expected outcomes.
Recommendation 5: To ensure an overall contractor performance evaluation process is
available to create a rating for the entire PRIME contract, the BSMO should complete activities
to implement an overall contractor performance evaluation process.
       Management’s Response: The CIO agreed with this recommendation. To ensure an
       overall contractor performance evaluation process is available to create a rating for the
       entire PRIME contract, the IRS has implemented a contractor performance evaluation
       process and is completing an evaluation for the PRIME contractor.

                                                                                          Page 10
                         Strengthened Management Processes Are Needed
                    to Assure the Usefulness of Products and Services Received
                       Through the Infrastructure Shared Services Task Order



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether the Internal Revenue Service (IRS)
is receiving full value from the PRIME contractor1 under the terms and conditions of the Fiscal
Year 2004/2005 Infrastructure2 Shared Services task order.3 To accomplish this objective, we:
I.      Determined whether work items were clearly identified and adequate acceptance criteria
        had been developed.
II.     Determined whether a judgmental sample of work items provided value to the IRS by:4
        A. Comparing work items to product descriptions.
        B. Interviewing users/owners.
        C. Determining whether requested corrections were made by the PRIME contractor.
III.    Determined whether the IRS evaluated the PRIME contractor’s overall performance on
        the task order by regularly monitoring and measuring performance for specific work
        items and special projects.
        A. Determined whether the IRS evaluated the PRIME contractor’s performance on
           specific work items.
        B. Reviewed the 11 special projects within the Fiscal Year 2004/2005 Infrastructure
           Shared Services task order and determined the IRS’ process for managing, measuring,
           and reporting performance and results.




1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  Infrastructure refers to the hardware, software, and security systems that computer systems use to communicate
and share information.
3
  A task order is an order for services placed against an established contract.
4
  We accomplished this subobjective by reviewing a judgmental sample of 27 (14 percent) of 195 work items
produced by the PRIME contractor and formally accepted by the IRS between February 2004 and May 2005. We
selected the sample to include a cross-section of work items from the task order, with more work items being
selected in areas where more money was being expended. We used a judgmental sample because we did not plan to
project the results. See Appendix VII for more information related to the sample results.
                                                                                                       Page 11
                      Strengthened Management Processes Are Needed
                 to Assure the Usefulness of Products and Services Received
                    Through the Infrastructure Shared Services Task Order



                                                                              Appendix II


                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program)
Gary Hinkle, Director
Troy Paterson, Audit Manager
Phung Nguyen, Lead Auditor
Tina Wong, Senior Auditor
Charlene Elliston, Auditor




                                                                                        Page 12
                     Strengthened Management Processes Are Needed
                to Assure the Usefulness of Products and Services Received
                   Through the Infrastructure Shared Services Task Order



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Director, Procurement OS:A:P
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 13
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Inefficient Use of Resources – Actual; $310,863 (see page 4).

Methodology Used to Measure the Reported Benefit:

We interviewed the Acquisition Project Manager and Project Account Managers1 assigned to
implement and monitor special projects from the Fiscal Year 2004/2005 Infrastructure2 Shared
Services task order.3 According to the Internal Revenue Service (IRS), the PRIME contractor’s
performance was not worth the cost near the conclusion of its involvement in the project, and
funding priorities made it wise to take what the PRIME contractor had produced and transition it
to the IRS for completion. Regarding the Portal Upgrade and Infrastructure Development
Sandbox,4 the IRS stated the special project was never completed and was ultimately cancelled
by the IRS in December 2004.
According to the IRS, it estimates it spent approximately $310,863 ($83,613 for the Enterprise
File Transfer Utility Support Services special project and $227,250 for the Portal Upgrade and
Infrastructure Development Sandbox special project) on the portions of the 2 special projects that
did not provide anticipated value. In both cases, the IRS stated that, while it did not receive the
anticipated value from these special projects, it did receive value by either completing work
internally or as part of another project.




1
  Acquisition Project Managers provide detailed acquisition/technical management of the contractor’s performance.
Project Account Managers provide the day-to-day technical oversight on all activities outlined in the task order and
related documents.
2
  Infrastructure refers to the hardware, software, and security systems that computer systems use to communicate
and share information.
3
  A task order is an order for services placed against an established contract.
4
  The Infrastructure Development Sandbox provides a development and testing environment for IRS shared
infrastructure components.
                                                                                                           Page 14
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



                                                                                                Appendix V

      Major Components and Special Projects for the
       Fiscal Year 2004/2005 Infrastructure Shared
                   Services Task Order

The Fiscal Year (FY) 2004/2005 Infrastructure1 Shared Services (ISS) task order2 contains many
different components and special projects for which the PRIME contractor3 is tasked to perform
activities and provide work items and services. Each component and special project has a total
estimated cost associated for each contracted period. Table 1 provides a snapshot of the major
components and Table 2 provides a snapshot of the special projects from the FY 2004/2005 ISS
task order dated May 17, 2005. The total estimated costs shown are provided for the contracted
base period of February 21 through November 30, 2004, and the option period of
December 1, 2004, through November 30, 2005.




1
  Infrastructure refers to the hardware, software, and security systems that computer systems use to communicate
and share information.
2
  A task order is an order for services placed against an established contract.
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the Internal Revenue Service’s (IRS) efforts to modernize its computer
systems and related information technology.




                                                                                                          Page 15
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order



                                  Table 1: Estimated Costs for
                         FY 2004/2005 ISS Task Order Major Components
                                                                       February 2004 - December 2004 -
                         Major Components
                                                                       November 2004 November 2005
    Program Management Support                                              $3,708,595      $4,453,481
    Consulting Services                                                   Not Available             $0
    Performance                                                               $487,174        $430,025
    Capacity                                                                $1,023,236        $858,987
    Enhancements                                                            $1,666,037      $2,312,884
    Requirements                                                              $402,887        $676,965
    Customer Support Services                                               $4,192,271      $5,434,676
    Engineering                                                                $95,356         $44,966
    Development, Integration, and Test Environment4                         $3,179,833     $10,795,704
                          TOTALS                                           $14,755,389     $25,007,688
    Source: Treasury Inspector General for Tax Administration analysis of the FY 2004/2005 ISS task order
    (modification 40, dated May 17, 2005).




4
  The Development, Integration, and Test Environment is a consolidated administrative and oversight function for
three related Business Systems Modernization infrastructure support environments: the Solutions Development
Laboratory, Virtual Development Environment, and Enterprise Integration and Test Environment.
                                                                                                            Page 16
                            Strengthened Management Processes Are Needed
                       to Assure the Usefulness of Products and Services Received
                          Through the Infrastructure Shared Services Task Order



                                   Table 2: Estimated Costs for
                           FY 2004/2005 ISS Task Order Special Projects5
                                                                       February 2004 - December 2004 -
                           Special Projects
                                                                       November 2004 November 2005
    Initial Cost Estimate for Modernization Disaster
                                                                                  $47,483 None in FY 2005
    Recovery
    Enterprise File Transfer Utility Support Services6                     Not Available              Not Listed
    Infrastructure Enhancements Plan and Technology
                                                                               $3,099,745 None in FY 2005
    Refresh
    Infrastructure Enhancements – Employee
                                                                               $1,026,227 None in FY 2005
    Registration 1.1
    Portal Upgrade and Infrastructure Development
                                                                                 $967,995 None in FY 2005
    Sandbox7
    Support and Maintenance for Production Systems                          $1,175,760      $1,199,989
    General Lab Support                                                     $7,145,227 None in FY 2005
    Modernization Security System                                      None in FY 2004        $554,041
    Security Tiger Team                                                None in FY 2004      $2,376,775
    Disaster Recovery for Tier 28                                      None in FY 2004      $1,744,066
    Ongoing Development, Integration, and Test
    Environment Operations for Security and Systems                    None in FY 2004                  $381,740
    Administration
                             TOTALS                                          $13,462,437              $6,256,611
    Source: The FY 2004/2005 ISS task order (modification 40, dated May 17, 2005).




5
  The IRS received value from the 9 of 11 unshaded special projects listed in Table 2. The two shaded special
projects did not provide full value to the IRS.
6
  Within the FY 2004/2005 ISS task order (modification 40), no total estimated costs were provided for this special
project. See Appendix IV for a discussion of actual funds spent on this special project.
7
  The Infrastructure Development Sandbox provides a development and testing environment for IRS shared
infrastructure components.
8
  Tier 2 refers to mid-level computer systems.
                                                                                                           Page 17
                           Strengthened Management Processes Are Needed
                      to Assure the Usefulness of Products and Services Received
                         Through the Infrastructure Shared Services Task Order



                                                                                                   Appendix VI

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes
A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
   business change.
Management Processes, which are organized into management areas and operate across the
  entire life cycle.




1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 18
                                            Strengthened Management Processes Are Needed
                                       to Assure the Usefulness of Products and Services Received
                                          Through the Infrastructure Shared Services Task Order



                                                        Enterprise Life-Cycle Processes


                                       IRS Governance and Investment Decision Management
  Management




                                                Program Management and Project Management

                                       Architectural Engineering / Development Coordination

                                                        Management Support Processes


                                                                                                     Business Processes




                                                                                                                              Operations & Support
                                                                                                             Applications
                   Vision & Strategy




                                                         Development
                                         Architecture




                                                                                     Deployment
                                                                       Integration
  Life Cycle




                                                                                                                     Data


                                                                                                  Organizational Change


                                                                                                  Technical Infrastructure


                                                                                                  Facilities Infrastructure


               Source: ELC Guide, Page 2-16.




Life-Cycle Processes
The life-cycle processes of the ELC are divided into six phases, as described below:
         •        Vision and Strategy - This phase establishes the overall direction and priorities for
                  business change for the enterprise. It also identifies and prioritizes the business or system
                  areas for further analysis.
         •        Architecture - This phase establishes the concept/vision, requirements, and design for a
                  particular business area or target system. It also defines the releases for the business area
                  or system.

                                                                                                                                             Page 19
                      Strengthened Management Processes Are Needed
                 to Assure the Usefulness of Products and Services Received
                    Through the Infrastructure Shared Services Task Order



   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes
Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as


                                                                                           Page 20
                       Strengthened Management Processes Are Needed
                  to Assure the Usefulness of Products and Services Received
                     Through the Infrastructure Shared Services Task Order



       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones
The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
   •   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
   •   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.


                                                                                           Page 21
                   Strengthened Management Processes Are Needed
              to Assure the Usefulness of Products and Services Received
                 Through the Infrastructure Shared Services Task Order



•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                     Page 22
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



                                                                                              Appendix VII

    Review of Value Received From Sample Work Items

The Treasury Inspector General for Tax Administration (TIGTA) reviewed a judgmental sample
of 27 work items from a population of 195 work items produced by the PRIME contractor1 and
received by the Internal Revenue Service (IRS) between February 2004 and May 2005. Table 1
provides an analysis of the value received by the IRS for each of the sample work items.




1
 The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the Internal Revenue Service’s efforts to modernize its computer systems
and related information technology.
                                                                                                          Page 23
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



                Table 1: Independent Assessment of Value Received From
                               the 27 Sample Work Items
    Number       Sample Work Items                                         Value Analysis
      1    Monthly Technical Project                     Anticipated value was not obtained – We
           Status Review Package                         determined IRS officials no longer attend the
                                                         meetings, IRS officials no longer use the items
                                                         from the Package, and the PRIME contractor
                                                         questioned the purpose of the meetings
                                                         associated with the Package. In response to
                                                         preliminary results from this audit, the IRS stated
                                                         it believed the initial Technical Project Status
                                                         Review meetings served a specific function of
                                                         coordinating technical issues within the PRIME
                                                         contractor organization; however, it believed, as
                                                         time has passed, the Technical Project Status
                                                         Review has had limited value and can be
                                                         eliminated.
       2      Project Management Plan                    Anticipated value was not obtained – We
              (Draft)                                    determined Acquisition Project Managers and
                                                         Project Account Managers2 do not use the
                                                         Project Management Plan and not all procedures
                                                         outlined in the Project Management Plan are
                                                         being followed. This item was discussed with
                                                         the IRS in August 2005. We discussed our value
                                                         determination with the IRS in
                                                         September 2005, at which time the IRS provided
                                                         verbal comments. In December 2005, based on a
                                                         preliminary version of this report, the IRS
                                                         clarified it chose to align staff and processes with
                                                         program-level requirements instead of
                                                         implementing a final version of the Project
                                                         Management Plan.




2
  Acquisition Project Managers provide detailed acquisition/technical management of the contractor’s performance.
Project Account Managers provide the day-to-day technical oversight on all activities outlined in the task order and
related documents.
                                                                                                           Page 24
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



    Number       Sample Work Items                                         Value Analysis
      3    Performance Problem Reporting                 Deferred or other value received – We
           Procedures (Final)                            determined performance measures from the work
                                                         item were never implemented. In addition, the
                                                         IRS Project Account Manager stated no value
                                                         was obtained from the work item. This item was
                                                         discussed with the IRS in July and August 2005.
                                                         We discussed our value determination with the
                                                         IRS in September 2005, at which time the IRS
                                                         provided verbal comments. In December 2005,
                                                         based on a preliminary version of this report, the
                                                         IRS stated that, due to a change in modernization
                                                         roles and the Modernization and Information
                                                         Technology Services (MITS) organization’s
                                                         reorganization, the value of this product was
                                                         deferred, not lost.
       4      CISCOWorks Deployment Plan                 Deferred or other value received – We
                                                         determined IRS users/owners stated no value
                                                         was obtained from the Plan. This item was
                                                         discussed with the IRS in July and August 2005.
                                                         We discussed our value determination with the
                                                         IRS in September 2005, at which time the IRS
                                                         provided verbal comments. In December 2005,
                                                         based on a preliminary version of this report, the
                                                         IRS stated it determined it could implement the
                                                         CISCOWorks upgrade at a lower cost internally.
       5      Firewall Coordination Process              Anticipated value was not obtained – We
              Document                                   determined the IRS users/owners have not used
                                                         the Document.
       6      Cost-Benefit Analysis Approach             Anticipated value was obtained – We
              - Consolidating Master File3               determined the IRS used the Analysis to
              Datastore                                  determine whether to consolidate the Master File
                                                         datastore.




3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                           Page 25
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



    Number      Sample Work Items                                         Value Analysis
      7    Enterprise Systems Management                Deferred or other value received – The IRS
           Load/Balancer Reports                        could not locate any project personnel who were
                                                        using these Reports. We initially requested to
                                                        discuss these Reports with a user in June 2005.
                                                        In December 2005, after our audit work was
                                                        completed, the IRS informed us these Reports
                                                        are being used by another contractor who uses
                                                        them to create additional reports for use by the
                                                        IRS.
       8      System Security Plan for Web              Anticipated value was obtained – We
              Hosting                                   determined IRS officials used the Plan for
                                                        security certification purposes.
       9      Evidence of Customer Sign-off             Anticipated value was obtained – We
                                                        determined IRS officials used this product during
                                                        the requirements testing process.
      10      Traceability Matrix for                   Anticipated value was obtained – We
              Employee                                  determined IRS officials used this product during
              Registration 1.1 Requirements             the requirements testing process.
      11      Revised Update to System                  Anticipated value was obtained – We
              Administrator Guide                       determined IRS system administrators are using
                                                        the Guide.
      12      Revision 3 to the Disaster                Anticipated value was not obtained – The IRS
              Recovery Plan (Tier 2)4                   Project Account Manager stated no value was
                                                        obtained from Revision 3.
      13      Gap Analysis With Risk Impact             Deferred or other value received – We
              Assessment                                determined the Gap Analysis was not used as
                                                        originally intended by the IRS. However, the
                                                        IRS is using this work item and receiving value
                                                        as part of a current infrastructure5 project.
      14      Lab Build-out Technology                  Anticipated value was obtained – We
              Model View                                determined the IRS is currently using this work
                                                        item.
      15      Lab Build-out Physical                    Anticipated value was obtained – We
              Technology Model                          determined the IRS is currently using this work
                                                        item.


4
 Tier 2 refers to mid-level computer systems.
5
 Infrastructure refers to the hardware, software, and security systems that computer systems use to communicate
and share information.
                                                                                                         Page 26
                  Strengthened Management Processes Are Needed
             to Assure the Usefulness of Products and Services Received
                Through the Infrastructure Shared Services Task Order



Number       Sample Work Items                            Value Analysis
  16   Interconnection Security         Anticipated value was obtained – We
       Agreement                        determined the Agreement was needed and was
                                        used between IRS organizations.
  17    System Integration and Test     Anticipated value was obtained – We
        Report                          determined the Report was a required product of
                                        an IRS testing process.
  18    Infrastructure Enhancements     Deferred or other value received – We
        Plan – New Technology           determined the current IRS Project Account
        Migration and Tivoli®/Cognos®   Manager was not using the Plan. This item was
                                        discussed with the IRS in July 2005. We
                                        discussed our value determination with the IRS
                                        in September 2005, at which time the IRS
                                        provided verbal comments. In December 2005
                                        and January 2006, based on a preliminary
                                        version of this report, the IRS stated this “Plan”
                                        was a high-level product documenting an
                                        approach that could be taken. As such, it would
                                        not be used by the current implementation
                                        Project Account Manager. After assessing the
                                        associated costs, the IRS decided to implement
                                        the solution internally.
  19    Interface Control Document      Anticipated value was obtained – We
                                        determined the Document was needed and was
                                        used by the IRS.
  20    Component-Level Inventory       Anticipated value was not obtained – We
        Reports                         determined IRS users/owners received the
                                        Reports but did not use the items. The IRS
                                        eliminated the requirement for this Report in
                                        April 2005.
  21    Information Technology and      Anticipated value was not obtained – We
        Asset Management Systems        determined IRS users/owners received the
        Inventory Reports               Reports but did not use the items. The IRS
                                        eliminated the requirement for this Report in
                                        April 2005.




                                                                                  Page 27
                   Strengthened Management Processes Are Needed
              to Assure the Usefulness of Products and Services Received
                 Through the Infrastructure Shared Services Task Order



Number       Sample Work Items                             Value Analysis
  22   Draft Requirements Report         Deferred or other value received – The IRS
                                         Acquisition Project Manager and Project
                                         Account Manager could not determine the status
                                         of the Report or the users/owners of the Report.
                                         We requested a meeting with the user of this
                                         item in June 2005. By September 2005, the IRS
                                         could not provide us with a contact point. After
                                         our audit work was completed, the IRS informed
                                         us it used the requirements in another work item.
                                         In December 2005, based on a preliminary
                                         version of this report, the IRS stated that, due to
                                         a change in modernization roles and the MITS
                                         organization’s reorganization, the value of this
                                         product was deferred, not lost.
  23     Draft Modernization Network     Anticipated value was not obtained – We
         Requirements Forecast           determined IRS users/owners needed the
                                         Forecast; however, the work item was never
                                         provided to them. This item was discussed with
                                         the IRS in July and August 2005. We discussed
                                         our value determination with the IRS in
                                         September 2005, at which time the IRS provided
                                         verbal comments. In December 2005, based on a
                                         preliminary version of this report, the IRS
                                         clarified anticipated value was not obtained
                                         because the Forecast was not available in time to
                                         meet the intended purpose.
  24     Modernized Shared Services      Deferred or other value received – We
         Logical Diagram                 determined the Diagram was not used as
                                         originally intended by the IRS. However, the
                                         IRS is using this work item and receiving value
                                         as part of a current infrastructure project.
  25     Infrastructure Customer         Deferred or other value received – We
         Requirements for Secure Web     determined requirements were not used as
                                         originally intended by the IRS. However, the
                                         IRS is using this work item and receiving value
                                         as part of a current infrastructure project.
  26     Development, Integration, and   Anticipated value was obtained – We
         Test Environment Build-out      determined IRS project managers are currently
         Technology Model View Update    using this work item.


                                                                                   Page 28
                          Strengthened Management Processes Are Needed
                     to Assure the Usefulness of Products and Services Received
                        Through the Infrastructure Shared Services Task Order



 Number       Sample Work Items                                        Value Analysis
   27   Outline for Disaster Recovery                   Anticipated value was obtained – We
        Strategy for Tier 2, Version 4.0                determined IRS officials are currently using this
                                                        work item.
Source: TIGTA analysis of the selected sample work items and IRS input on a preliminary version of this report.




                                                                                                         Page 29
         Strengthened Management Processes Are Needed
    to Assure the Usefulness of Products and Services Received
       Through the Infrastructure Shared Services Task Order



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                          Page 30
     Strengthened Management Processes Are Needed
to Assure the Usefulness of Products and Services Received
   Through the Infrastructure Shared Services Task Order




                                                      Page 31
     Strengthened Management Processes Are Needed
to Assure the Usefulness of Products and Services Received
   Through the Infrastructure Shared Services Task Order




                                                      Page 32
     Strengthened Management Processes Are Needed
to Assure the Usefulness of Products and Services Received
   Through the Infrastructure Shared Services Task Order




                                                      Page 33
